NO.

 

IN THE SUPREME COURT OF THE UNITED STATES
HERMINIO REYES, Petitioner,
vs.

STATE OF GEORGIA, Respondent.

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
COMES NOW the Petitioner, Mr. Herminio Reyes; and, pursuant to Sup. Ct.
Rule 39.1, asks for leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis.
1) In pre-trial and trial proceedings, Petitioner was represented by appointed

counsel due to his indigent status. See, O.C.G.A. § 15-1-5; Uniform

Superior Court Rule 29.2; Hawkins v. State, 222 Ga. App. 461 (1996).

 

2) The Gwinnett County Superior Court in Georgia appointed the
undersigned to represent Petitioner on appeal. See, O.C.G.A. § 15-1-5;
Uniform Superior Court Rule 29.2. A copy of the appointment order is
attached as Exhibit 1.

3) Petitioner remains indigent and wishes to pursue a writ of certiorari from

this Court to the Supreme Court of Georgia, which affirmed his judgment
of conviction on August 10, 2020 and denied his motion for
reconsideration on September 8, 2020.
WHEREFORE, Mr. Herminio Reyes asks this Court to grant his motion and
allow him to proceed in forma pauperis.
Dated this 5th day of February, 2021.

spectfully submitted,

Acunces Lo
ICES KUO
Supreme Court Bar No. 299215
Frances Kuo
214 Executive Building
125 East Trinity Place
Decatur, GA 30030
Tel: (404) 378-1241
kuoappeal@gmail.com
Counsel for Mr. Herminio Reyes
EXHIBIT 1

IN THE SUPERIOR COURT OF GWINNETT COUNTY

STATE OF GEORGIA
STATE OF GEORGIA ) CRIMINAL ACTION
) FILE NUMBER = 18-B-01333-10
v. )
)
HERMINIO N. REYES )
Defendant )
)
)

)

APPOINTMENT OF COUNSEL FOR INDIGENT PERSON
FOR PURPOSES OF APPEAL & POST TRIAL MATTERS

The person named above has satisfied the court that s/he is financially unable to employ an
attorney and does not waive an attorney for the purposes of appellate review.

Henceforth, the attorney designated below shall represent the person and the appointment
shall remain in effect through alll courts in the circuit until the case is completed or another attorney

is appointed by the Court or retained.

Said appointed counsel to replace former trial counsel, Donald P. Geary whose motion to
withdraw is hereby granted.

Frances Kuo Bom ak:

GA Bar No. 430440 = 2 2.

214 Executive Building & 8 225

125 E. Trinity Place z = 35

Decatur, GA 30030 FON oB®

(404) 378-1241 (office) 22 eek

PL aed

nA 2 = sem

$O ORDERED this om day-of November, 2018. 3 2 SB

 

NY x CS SS SORA

Warren Davis, Judge
Gwinnett Superior Court

cc:DA’s Office, Appointed Attorney, former counsel, Defendant, AOC

31
